No. 21-5592

In the Supreme Court
of the United States
__________
JOHN HENRY RAMIREZ,
Petitioner,
v.
BRYAN COLLIER, EXECUTIVE DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, ET AL.
_________

Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

__________

MOTION OF AMICUS CURIAE THE BECKET FUND FOR RELIGIOUS
LIBERTY FOR LEAVE FOR PROF. MICHAEL MCCONNELL TO PRESENT
ORAL ARGUMENT ON BEHALF OF AMICUS, FOR DIVIDED ARGUMENT,
AND TO ENLARGE THE TIME FOR ARGUMENT
__________
MICHAEL W. MCCONNELL
559 Nathan Abbott Way
Stanford, CA 94305
JOSHUA C. MCDANIEL
JAMES A. SONNE
HARVARD LAW SCHOOL
RELIGIOUS FREEDOM CLINIC
1585 Massachusetts Ave.
Cambridge, MA 02138

ERIC C. RASSBACH
Counsel of Record
LORI H. WINDHAM
CHRIS PAGLIARELLA
DANIEL L. CHEN
JAMES J. KIM
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1919 Penn. Ave., NW
Suite 400
Washington, DC 20006
(202) 955-0095
erassbach@becketlaw.org
Counsel for Amicus Curiae

Pursuant to Rule 28.7, Amicus The Becket Fund for Religious Liberty respectfully moves for leave for its counsel, Professor Michael McConnell, to be allowed to
participate in oral argument for 10 minutes, or for such time as the Court deems
proper, in addition to the time allocated to the parties. Becket also moves for divided argument and enlargement of the time to accommodate the additional 10
minutes of argument. Both Petitioner and Respondents oppose this motion.
Granting this motion would materially assist the Court by providing adversary
presentation on three issues central to the resolution of this case and not substantially addressed by Petitioner or the United States: (1) the Free Exercise Clause
claims (on which this Court granted certiorari); (2) the role historic religious practices should play in resolving the merits of Petitioner’s claims; and (3) the role historic equity practice should play in resolving Petitioner’s claims.
1. On September 7, 2021, Petitioner John Henry Ramirez, a Texas death-row
inmate, filed a petition for writ of certiorari with this Court, seeking review of two
questions. The first question asked whether “the Free Exercise Clause and Religious Land Use and Institutionalized Persons Act (‘RLUIPA’)” supported Petitioner’s challenge to a ban on touch from his pastor in the death chamber. Pet. i. The
second question asked whether “the Free Exercise Clause and Religious Land Use
and Institutionalized Persons Act (‘RLUIPA’)” supported Petitioner’s challenge to a
ban on audible prayer from his pastor in the chamber. Pet. i. The Court granted certiorari on both questions and stayed the execution.

1

2. In his subsequent merits brief, Petitioner emphasized his RLUIPA claims,
but did not substantially address the Free Exercise Clause claims on which the
Court granted review. Petitioner included the following footnote in his brief: “Petitioner’s RLUIPA and First Amendment claims seek the same relief, JA 101-02, so
Petitioner’s brief frames arguments in terms of RLUIPA’s requirements to streamline the analysis.” Pet.Br.10 n.2. Likewise, the United States—which filed in support of neither party and has now sought argument time—presented no argument
on the Free Exercise Clause claims.
3. As Becket explained in its amicus brief, there is a significant question as to
whether the First Amendment’s Free Exercise Clause protects the religious exercises at issue—audible clergy prayer and clergy touch—independently of statutory protections subject to legislative modification. Becket’s brief described centuries of Anglo-American legal history, including pre-Founding history, placing these exercises
at the center of historical practices and understandings with respect to clergy access
for the condemned. Becket has thus argued that just as historical practices and understandings guide the courts in interpreting most other parts of the Bill of Rights,
including the other Religion Clause, those historical practices and understandings
should support the Free Exercise claims here. Those arguments are both central to
this appeal and unique.
4. The same is true of Becket’s arguments regarding the role of historic religious
practices and the role of historic equity practices in deciding this appeal. While Pe-

2

titioner and the United States have not substantially addressed these issues in
their briefing, Becket’s view is that they are central to the resolution of this appeal.
5. If granted argument time, argument for Becket would be presented by Professor Michael McConnell. Professor McConnell is a professor of law at Stanford
Law School, where he heads the Stanford Constitutional Law Center. He is also a
former judge of the United States Court of Appeals for the Tenth Circuit and a frequent advocate before this Court. See, e.g., Carney v. Adams, 141 S. Ct. 493 (2020);
Horne v. Department of Agric., 576 U.S. 350 (2015). Professor McConnell’s writings
on how the Religion Clauses are informed by their historical understanding has
been cited repeatedly by the Justices of this Court. See, e.g., Espinoza v. Montana
Dep’t of Revenue, 140 S. Ct. 2246, 2258 (2020); Hosanna-Tabor Evangelical Lutheran Church & Sch. v. EEOC, 565 U.S. 171, 183 (2012); Fulton v. City of Philadelphia, 141 S. Ct. 1868, 1889 (2021) (Alito, J., concurring in the judgment) (discussing
Professor McConnell’s work as one “of the country’s most distinguished scholars of
the Religion Clauses”); City of Boerne v. Flores, 521 U.S. 507, 537 (1997) (Scalia, J.,
concurring in part) (responding to Professor McConnell as “the most prominent
scholarly critic of [Employment Division v.] Smith”). Professor McConnell has also
extensively engaged with questions of free exercise in his prior service as a federal
judge. See, e.g., Colorado Christian Univ. v. Weaver, 534 F.3d 1245 (10th Cir. 2008).
6. In this case, Professor McConnell represents Becket, which has been counsel
before this Court in seven merits arguments relating to the free exercise of religion,
including Holt v. Hobbs, 574 U.S. 352 (2015), where this Court applied RLUIPA’s

3

prisoner protections for the first time. Moreover, Becket has decades of experience
in prisoner religious liberty litigation, including cases concerning kosher dietary accommodation in Georgia, Florida, Massachusetts, and Texas; Muslim prisoner access to religious literature in California and Louisiana, and a host of other religious
liberty claims involving Catholics, Native Americans, Sikhs, and other prisoner
plaintiffs. Becket has also filed amicus briefing in support of death-chamber clergy
access in Murphy v. Collier, 139 S. Ct. 1475 (2019), and Dunn v. Smith, 141 S. Ct.
725 (2021). Professor McConnell will be able to draw on this experience in presenting argument.
7. There is ample precedent for this Court appointing amicus counsel, often legal scholars, to ensure adversarial presentation on important issues resolved below
and not fully addressed by the parties. See, e.g., Collins v. Yellen, 141 S. Ct. 1761
(2021) (Professor Aaron Nielson appointed to defend portion of judgment below not
disputed by the parties); United States v. Windsor, 570 U.S. 744, 755 (2013) (Professor Vicki Jackson appointed to present adversarial argument on jurisdictional issue). This Court has also granted leave to private amici to participate in oral argument when doing so promises to enhance this Court’s consideration of the issues,
including by scholars and entities with significant background experience. See, e.g.,
Dalmazzi v. United States, 138 S. Ct. 576 (2018) (Professor Aditya Bamzai granted
leave to address constitutional issue on which the parties had no disagreement);
Pacific Bell Tel. Co. v. Linkline Commc’ns, Inc., 555 U.S. 438, 447 (2009) (American
Antitrust Institute granted leave to present argument defending decision below on

4

the merits); Alabama v. Shelton, 535 U.S. 654, 657 (2002) (permitting leave for amicus argument by National Association of Criminal Defense Lawyers in support of
respondent, in addition to separate amicus appointed to provide argument in support of judgment below); see also Stephen M. Shapiro et al., Supreme Court Practice
§ 14.7, at 782 & n.33 (10th ed. 2013).
8. Amicus argument should remain the exception, but this case is one of the exceptions that prove the rule. This appeal has proceeded on an atypical schedule, and
the Court will benefit from hearing arguments that better elucidate a crucial constitutional issue that affects many litigants. Moreover, neither Petitioner nor the
United States (should it be granted time to argue as amicus) has indicated that it
will present argument on the granted petition’s First Amendment claims, the role of
historic religious practices in defining clergy access to the condemned, or the role of
historic equitable doctrines in deciding what relief this or other courts may give Petitioner. Respondent’s opposition to those arguments—and the Fifth Circuit’s
treatment of them below (in particular the Free Exercise Clause)—will therefore receive no adversarial testing at argument. Becket respectfully submits that, under
these unique circumstances, the Court would benefit from adversarial oral argument by Professor McConnell on Becket’s behalf.

5

October 1, 2021
MICHAEL W. MCCONNELL
559 Nathan Abbott Way
Stanford, CA 94305
JOSHUA C. MCDANIEL
JAMES A. SONNE
HARVARD LAW SCHOOL
RELIGIOUS FREEDOM CLINIC
1585 Massachusetts Ave.
Cambridge, MA 02138

Respectfully submitted.
ERIC C. RASSBACH
Counsel of Record
LORI H. WINDHAM
CHRIS PAGLIARELLA
DANIEL L. CHEN
JAMES J. KIM
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1919 Penn. Ave., NW
Suite 400
Washington, DC 20006
(202) 955-0095
erassbach@becketlaw.org
Counsel for Amicus Curiae

6

